                           Improvements Are Needed
                          to Ensure Compliance With
                        the Freedom of Information Act

                                    March 2004

                       Reference Number: 2004-40-064




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       March 30, 2004


       MEMORANDUM FOR CHIEF, COMMUNICATIONS AND LIAISON


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report – Improvements Are Needed to Ensure
                                     Compliance With the Freedom of Information Act
                                     (Audit # 200340054)


       This report presents the results of our review of compliance with the Freedom of
       Information Act (FOIA).1 The overall objective of this review was to determine if the
       Internal Revenue Service (IRS) improperly withheld information requested by taxpayers
       in writing, based on FOIA exemption (b)(3), in conjunction with Internal Revenue Code
       (I.R.C.) Section (§) 6103,2 and/or FOIA exemption (b)(7), or by replying that the
       requested records were not available. Under § 1102 (d)(3)(A) of the IRS Restructuring
       and Reform Act of 1998,3 the Treasury Inspector General for Tax Administration is
       required to conduct periodic audits of a statistically valid sample of the total number of
       determinations made by the IRS to deny written requests to disclose information to
       taxpayers on the basis of I.R.C. § 6103 and/or FOIA exemption (b)(7).
       In summary, in the cases we sampled, the IRS improperly withheld information from
       requestors in 4.4 percent of the denied, partially denied, and no records available FOIA
       and Privacy Act of 1974 (PA)4 requests. In addition, the IRS improperly withheld
       information from requestors in 14.6 percent of the I.R.C. § 6103 requests sampled
       where information was denied or requestors were told that the records did not exist.
       This represents a larger percentage of improper withholdings than reported in our Fiscal




       1
         5 U.S.C.A. § 552 (West Supp. 2003).
       2
         I.R.C. § 6103 (2001).
       3
         Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
       16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.)
       4
         5 U.S.C. § 552a (2000).
                                                      2


Year 2003 report,5 when the IRS improperly withheld information in 9.3 percent of the
I.R.C. § 6103 requests.
Disclosure managers and specialists had not conducted the required review in
94 percent of the error cases and in 85 percent of all sampled cases, despite the fact
that in April 2002, the Office of Disclosure began requiring Disclosure managers or their
specialists to review all FOIA, PA, and I.R.C. § 6103 cases in which requested
information was not provided and to document their review in the case notes. In
addition, the use of an IRS form letter for certain I.R.C. § 6103 requestors may be the
cause for a number of the recorded errors.
We recommended that the Chief, Communications and Liaison, take steps to ensure
that required reviews of all FOIA, PA, and I.R.C. § 6103 cases in which requested
information was not provided are conducted and documented, or take alternative
actions to improve compliance.
Management’s Response: IRS management agreed with our recommendation. When
information is to be fully or partially denied, Disclosure specialists will document in the
Electronic Disclosure Information Management System history notes that a case has
been forwarded to the approving official for review and signature. The Director of
Disclosure will also issue a guidance memorandum to the Disclosure Officers advising
them of the corrective actions to be taken. Management’s complete response to the
draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.




5
 Opportunity for Improvement Exists for Compliance With the Freedom of Information Act and Related Procedures
(Reference Number 2003-10-164, dated August 2003).
                              Improvements Are Needed to Ensure Compliance
                                    With the Freedom of Information Act




                                                  Table of Contents


Background ............................................................................................... Page 1
The Disclosure Offices Did Not Provide Complete
Responses to Requestors ........................................................................ Page 3
         Recommendation 1: ....................................................................... Page 6

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 7
Appendix II – Major Contributors to This Report........................................ Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Outcome Measures ............................................................ Page 12
Appendix V – Management’s Response to the Draft Report ..................... Page 14
             Improvements Are Needed to Ensure Compliance
                   With the Freedom of Information Act

                        Section (§) 1102 (d)(3)(A) of the Internal Revenue Service
Background
                        (IRS) Restructuring and Reform Act of 19981 requires the
                        Treasury Inspector General for Tax Administration
                        (TIGTA) to conduct periodic audits of a statistically valid
                        sample of the total number of IRS determinations to deny
                        written requests to disclose information to taxpayers on the
                        basis of Internal Revenue Code (I.R.C.) § 61032 and/or
                        Freedom of Information Act (FOIA) exemption (b)(7).3
                        The FOIA requires records of the Federal Government to be
                        made available to the public upon request, unless
                        specifically exempt. FOIA exemption (b)(3)4 restricts the
                        release of records specifically exempt from disclosure by
                        statute (e.g., under I.R.C. § 6103). In turn, I.R.C. § 6103
                        controls the release of tax returns and return information and
                        provides a mechanism for taxpayers to request tax returns
                        and return information or request that it be disclosed to their
                        designee. FOIA exemption (b)(7) restricts the release of
                        records or information compiled for law enforcement
                        purposes.
                        The Privacy Act of 1974 (PA)5 contains a provision that
                        prevents Federal Government agencies from relying on any
                        exemption in the PA to withhold records that are otherwise
                        available to an individual under the FOIA. We included PA
                        cases in the sampled population, but only those partially or
                        fully denied under FOIA exemption (b)(3), in conjunction
                        with I.R.C. § 6103, and/or FOIA exemption (b)(7), to
                        determine if the IRS properly withheld the requested
                        information.
                        Within the IRS, the Office of Governmental Liaison and
                        Disclosure, through its Office of Disclosure, is responsible
                        for ensuring that the IRS complies with the FOIA, PA, and
                        I.R.C. § 6103 requirements and responds within the
                        statutory time periods for FOIA and PA requests. As such,

                        1
                          Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                        sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                        23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                        2
                          I.R.C. § 6103 (2001).
                        3
                          5 U.S.C.A. § 552 (West Supp. 2003).
                        4
                          5 U.S.C.A. § 552 (West Supp. 2003).
                        5
                          5 U.S.C. § 552a (2000).
                                                                                        Page 1
Improvements Are Needed to Ensure Compliance
      With the Freedom of Information Act

           the Office of Disclosure provides to field offices national
           oversight and guidance on procedural and policy matters
           and related training.
           The Disclosure offices process almost all the FOIA and PA
           requests received by the IRS. Written requests for
           information under I.R.C. § 6103 may be processed by either
           the individual Disclosure offices or other IRS offices having
           custody of the requested records.
           Of the 25,932 FOIA and PA requests processed through
           the Disclosure offices between January 1, 2003, and
           June 30, 2003, the Disclosure offices denied or partially
           denied 1,632 FOIA requests (6.3 percent) and replied
           that records were not available for 6,764 FOIA
           requests (26.1 percent). Of the 18,677 I.R.C. § 6103
           requests processed during that same time period, the
           Disclosure offices denied information or told requestors
           that records were not available for an estimated
           7,597 requests (40.7 percent).6 The remaining requests were
           either granted in full, referred to the agency where the
           records originated, withdrawn by the requestor, or not
           provided because the requestor did not meet the criteria in
           Treasury Regulation § 601.7027 or for some other
           miscellaneous reason. The total number of requests
           received represents a 66 percent increase in FOIA requests
           and an 8 percent increase in the I.R.C. § 6103 requests over
           the same period in 2002.
           The FOIA, PA, and I.R.C. § 6103 requests received by the
           Disclosure offices are controlled on the Electronic
           Disclosure Information Management System (E-DIMS).
           The IRS is not required to track I.R.C. § 6103 requests for
           return or return information from taxpayers or individuals
           with a material interest (such as a spouse, child, estate, etc.).
           Nevertheless, the IRS has elected to track all I.R.C. § 6103
           requests received by the Disclosure offices, but requests
           received by other IRS offices are not controlled on the


           6
             This number was estimated by TIGTA based on the ratio of cases in
           our sample where requestors were denied information or told that
           records were not available (see Appendix I).
           7
             Treas. Reg. § 601.702 (2002).
                                                                         Page 2
                       Improvements Are Needed to Ensure Compliance
                             With the Freedom of Information Act

                                  E-DIMS or otherwise inventoried. Therefore, the volume of
                                  I.R.C. § 6103 requests received outside of the Disclosure
                                  offices is unknown. As a result, we can statistically sample
                                  only the I.R.C. § 6103 requests processed directly by the
                                  Disclosure offices and tracked on the E-DIMS. The
                                  universe of I.R.C. § 6103 requests closed by other IRS
                                  offices cannot be determined or statistically sampled.
                                  The Office of Disclosure has begun an initiative to design
                                  an updated case tracking system. The new system, currently
                                  under development, is intended to provide additional data
                                  for better managerial overview of caseloads and to help the
                                  Office of Disclosure distribute work geographically,
                                  improving its ability to work cases in a more effective and
                                  efficient manner.
                                  Except for the limitations described above, this audit was
                                  conducted in accordance with Government Auditing
                                  Standards from September 2003 through January 2004.
                                  The audit was performed at the Office of Governmental
                                  Liaison and Disclosure in Washington, D.C. Detailed
                                  information on our audit objective, scope, and methodology
                                  is presented in Appendix I. Major contributors to the report
                                  are listed in Appendix II.
                                  In 4 (4.4 percent) of the 91 FOIA and PA cases sampled and
The Disclosure Offices Did Not
                                  14 (14.6 percent) of the 96 I.R.C. § 6103 cases sampled, the
Provide Complete Responses to
                                  IRS did not provide complete responses and improperly
Requestors
                                  withheld requested information. Projected to the population
                                  of 25,932 FOIA and PA cases and 18,677 I.R.C. § 6103
                                  cases closed by the Disclosure offices from January 1, 2003,
                                  to June 30, 2003, we estimate there were 369 FOIA and PA
                                  cases and 1,108 I.R.C. § 6103 cases in which the Disclosure
                                  offices did not provide available tax records when requested
                                  by taxpayers.8 As a result, while the extent of nondisclosure
                                  varied, the taxpayers’ rights were potentially violated and
                                  the IRS could risk incurring costs associated with
                                  administrative appeals and civil litigation initiated by those
                                  requestors improperly denied information.



                                  8
                                   See Appendix I for an explanation of our sampling methodology and
                                  Appendix IV for a description of outcome measures.
                                                                                               Page 3
Improvements Are Needed to Ensure Compliance
      With the Freedom of Information Act

           Chart 1 shows the percentage of improper withholdings for
           FOIA/PA and I.R.C. § 6103 identified during the last
           five audits (Fiscal Years (FY) 2000–2004).


                            Chart 1 - Audit Results - Improper FOIA/PA and
                              I.R.C. § 6103 Withholdings (FYs 2001-2004)
                          20%

                                                                                       14.6%
                                                             12.2%

             Percentage
                                              10.7%     10.6%
                                8.8%                                         9.3%
                          10%
                                       6.3%           7.0%            7.4%
                                                                                    4.4%



                          0%
                                FY2000         FY2001        FY2002     FY2003       FY2004

                                                  FOIA/PA             IRC 6103


           Source: TIGTA Audit Reports FYs 2000–2004.

           The IRS had a lower percentage of improper FOIA and PA
           withholdings during the period from which our sample cases
           were drawn (January 1, 2003, through June 30, 2003) than
           in any prior period audited. However, the rate of improper
           withholdings for I.R.C. § 6103 requests showed a
           significant increase over the level reported in FY 2003.
           We analyzed the 4 FOIA and PA cases and the
           14 I.R.C. § 6103 requests with improper withholdings from
           our samples and determined that the types of information
           being improperly withheld have remained relatively
           constant over all 5 audit periods. The most common types
           of information withheld were miscellaneous IRS forms and
           documents associated with tax transcript information.
           Disclosure personnel errors occurred principally because
           caseworkers did not conduct complete research to identify
           the information available. In over 80 percent of the error
           cases, additional information should have been identified
           through more thorough research of the Integrated Data



                                                                                           Page 4
Improvements Are Needed to Ensure Compliance
      With the Freedom of Information Act

           Retrieval System (IDRS)9 to identify wage and earning
           information and older tax information. The IDRS is the
           computer system the caseworkers principally use to identify
           available taxpayer records. The remaining errors were due
           to simple oversights of requested information or to an
           improper determination that a taxpayer’s Power of Attorney
           authorization was not valid.
           Disclosure managers and specialists had not conducted the
           required review in 17 (94 percent) of the 18 error cases. In
           April 2002, the Office of Disclosure began requiring
           Disclosure managers or their specialists to review all FOIA,
           PA, and I.R.C. § 6103 cases in which requested information
           was not provided and to document their review in the case
           notes. In 159 (85 percent) of the 187 total cases sampled,
           neither a Disclosure manager nor a specialist documented a
           review in the case notes. Without this managerial review,
           there is no quality control in place to ensure that the IRS
           provided a complete response and that requested
           information was not improperly withheld.
           In 8 of the 14 I.R.C. § 6103 error cases, the caseworkers did
           not address all the items on the request. Certain requestors,
           such as parole officers, use various self-designed form
           letters for their information requests. These letters usually
           provide a list of items being requested. However, in these
           eight instances, not all of the listed items on the requestor’s
           form letter were provided. The Acting Director, Office of
           Government Liaison and Disclosure, stated that this might
           have occurred because of caseworker oversight or because
           of informal agreements between the requestors and the
           Disclosure offices to provide only certain information on the
           list.
           In response to prior TIGTA reports, the Office of Disclosure
           developed an IDRS training course and planned to do
           employee skill assessments. However, due to budgetary
           restrictions, the Office of Disclosure has not been able to
           fund the IDRS training. Also, employee skill assessments
           have not been performed. Without IDRS training and skill


           9
             The IRS computer system capable of retrieving or updating stored
           information; it works in conjunction with a taxpayer’s account records.
                                                                           Page 5
Improvements Are Needed to Ensure Compliance
      With the Freedom of Information Act

           assessments, employees may not be able to correctly
           respond to some requests and management may be hindered
           in identifying employee needs.
           The IRS needs to implement the corrective actions proposed
           in response to previous TIGTA audit reports to ensure
           continued compliance with the FOIA, PA, and I.R.C. § 6103
           statutes. In addition, the Office of Disclosure needs to
           ensure that managerial reviews are conducted.

           Recommendation

           1. The Chief, Communications and Liaison, should:
              (a) take steps to ensure that Disclosure managers and
              specialists conduct the required reviews of all FOIA,
              PA, and I.R.C. § 6103 cases in which requested
              information was not provided and document their review
              in the case notes, or (b) take alternative actions to
              improve compliance.
           Management’s Response: When information is to be fully
           or partially denied, Disclosure specialists will document in
           the E-DIMS history notes that a case has been forwarded to
           the approving official for review and signature. The
           Director of Disclosure will issue a guidance memorandum
           to the Disclosure Officers advising them of the corrective
           actions to be taken.




                                                                 Page 6
                           Improvements Are Needed to Ensure Compliance
                                 With the Freedom of Information Act

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The objective of this audit was to determine if the Internal Revenue Service (IRS) improperly
withheld information requested by taxpayers in writing, based on the Freedom of Information
Act (FOIA) exemption (b)(3),1 in conjunction with the Internal Revenue Code (I.R.C.)
Section (§) 6103,2 and/or the FOIA exemption (b)(7)3 or by replying that the requested records
were not available. To accomplish this objective, we:

I.       Determined if the IRS’ Office of Disclosure properly adhered to statutory FOIA and
         Privacy Act of 1974 (PA)4 requirements, as well as procedural requirements.

         A. Identified 8,396 national FOIA and PA cases that were closed as partially or fully
            denied based on the FOIA exemption (b)(3), in conjunction with the I.R.C. § 6103,
            and/or the FOIA exemption (b)(7), or where requestors were told that records were
            not available during the period January 1, 2003, through June 30, 2003.
             1. Obtained an extract from the Electronic Disclosure Information Management
                System (E-DIMS) for the period January 1, 2003, through June 30, 2003, and
                identified all FOIA and PA cases closed as denied or partially denied based on the
                FOIA exemption (b)(3) in conjunction with IRC § 6103, the FOIA exemption
                (b)(7), or where requestors were told that records were not available.
             2. Performed limited tests to verify if the E-DIMS extract included the specified
                time period and information requirements.
         B. Designed an attribute sample based on a 90 percent confidence level, an expected
            error rate of 9.16 percent, and an estimated precision of + 5 percent. This sampling
            methodology was chosen so we could project the number of cases with improper
            withholdings to the universe of cases that were partially or fully denied based on the
            FOIA exemption (b)(3), in conjunction with the I.R.C. § 6103, and/or the FOIA
            exemption (b)(7), or where requestors were told that records were not available. The
            sampling plan and methodology are the same as those used in prior audits.
         C. Randomly sampled 91 of the 8,396 FOIA and PA cases that were partially or fully
            denied based on the FOIA exemption (b)(3), in conjunction with the I.R.C. § 6103,


1
  5 U.S.C.A. §552 (West Supp. 2003).
2
  I.R.C. § 6103 (2001).
3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
4
  5 U.S.C. § 552a (2000).
                                                                                                              Page 7
                     Improvements Are Needed to Ensure Compliance
                           With the Freedom of Information Act

         and/or the FOIA exemption (b)(7), or where requestors were told that records were
         not available.
      D. Reviewed the 91 sampled cases and determined if the decision to withhold
         information was appropriate, the record search was adequate, and the determination
         was made in a timely manner. Reviewed legal case precedents, as appropriate.
      E. Analyzed audit results from the last 4 years and determined if there were any
         common causes for the improper withholdings of FOIA and PA requests.
      F. Projected the number of improper withholdings in the range of 4 to 801
         (0 percent to 9.5 percent) FOIA and PA cases that were partially or fully denied based
         on the FOIA exemption (b)(3), in conjunction with the I.R.C. § 6103, and/or the
         FOIA exemption (b)(7), or where requestors were told that records were not
         available. The projection was made using attribute sampling, with a 90 percent
         confidence level and an error rate of 4.4 percent. As a result, the actual precision
         factor was 3.54 percent.
      G. Discussed all exception cases with the Office of Disclosure staff and obtained
         Treasury Inspector General for Tax Administration (TIGTA) Counsel opinions,
         where appropriate.
II.   Determined if the Disclosure offices were adhering to legal requirements when denying
      written requests received from taxpayers under I.R.C. § 6103:
      A. Obtained a national extract from the E-DIMS and identified 18,677 I.R.C. § 6103 (c)
         and (e) requests received in the Disclosure offices from taxpayers or their designees
         that were closed during the period January 1, 2003, through June 30, 2003. Limited
         tests were performed to determine if the E-DIMS extract included the specified time
         period and information requirements.
      B. Designed an attribute sample based on a 90 percent confidence level, an expected
         error rate of 9.4 percent, and an estimated precision of + 5 percent. This sampling
         methodology was chosen because it would allow us to project the number of cases
         with improper withholdings to the universe of closed I.R.C. § 6103 (c) and (e)
         requests where information was partially or fully denied, or where requestors were
         told that records were not available.
      C. Initially randomly sampled 325 of the 18,677 I.R.C. § 6103 (c) and (e) closed cases.
         Reviewed only the first 236 cases sampled to obtain the required number of cases to
         statistically project our results.
         1. Determined that 96 (40.7 percent) of the 236 randomly sampled and reviewed
            cases included instances where information was partially or fully denied, or
            requestors were told that records were not available.



                                                                                         Page 8
               Improvements Are Needed to Ensure Compliance
                     With the Freedom of Information Act

   2. Based on an initial analysis of the 236 randomly sampled cases, we estimated that
      the population of 18,677 closed I.R.C. § 6103 (c) and (e) requests contained
      7,597 requests where information was partially or fully denied, or requestors were
      told that records were not available.
D. Reviewed the 96 cases where information was partially or fully denied, or requestors
   were told that records were not available and determined if the decision to withhold
   the information based on the I.R.C. § 6103 was appropriate.
E. Analyzed TIGTA audit results from the last 4 years and determined if there were any
   common causes for the improper withholdings of I.R.C. § 6103 requests.
F. Projected the number of improper withholdings in the range of 639 to 1,577
   (8.4 percent to 20.8 percent) for the I.R.C. § 6103 (c) and (e) requests where
   information was partially or fully denied, or requestors were told that records were
   not available. The projection was made using attribute sampling, with a
   90 percent confidence level and an error rate of 14.6 percent. As a result, the actual
   precision factor was 6.17 percent.




                                                                                   Page 9
                      Improvements Are Needed to Ensure Compliance
                            With the Freedom of Information Act

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James D. O’Hara, Audit Manager
Kenneth L. Carlson, Jr., Senior Auditor
Tracy K. Harper, Auditor
Stephanie M. McFadden, Auditor
Lynn M. Ross, Auditor
Sharon Summers, Auditor




                                                                                         Page 10
                     Improvements Are Needed to Ensure Compliance
                           With the Freedom of Information Act

                                                                            Appendix III


                               Report Distribution List


Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Communication and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Office of Governmental Liaison and Disclosure CL:GLD
Director, Office of Disclosure CL:GLD:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Communications and Liaison CL
                Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM




                                                                                  Page 11
                           Improvements Are Needed to Ensure Compliance
                                 With the Freedom of Information Act

                                                                                                    Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •    Taxpayer Rights – Potential; 369 responses to Freedom of Information Act (FOIA)1 or
         Privacy Act (PA)2 requests where information was improperly withheld (see page 3).
Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of FOIA and PA requests that
were closed nationally during the period January 1, 2003, through June 30, 2003, as 1) a full or
partial denial with either the FOIA exemption (b)(3), in conjunction with the Internal Revenue
Code (I.R.C.) § 6103,3 and/or the FOIA exemption (b)(7) cited as one of the reasons for
withholding information; or 2) where requestors were told that records were not available.
We arrived at the estimate by:
         •   Multiplying the number of requests closed as partially or fully denied based on the
             FOIA exemption (b)(3), in conjunction with the I.R.C. § 6103, and/or the FOIA
             exemption (b)(7), or where requestors were told that records were not available, by
             the error rate of cases reviewed. A case was considered an “error” if a Disclosure
             office improperly withheld information that was available and could have been
             released under the FOIA and PA.
             8,396 * 4.395 percent4 = 369 cases.
Type and Value of Outcome Measure:
    •    Taxpayer Rights – Potential; 1,108 responses to I.R.C § 6103 requests where information
         was improperly withheld (see page 3).




1
  5 U.S.C.A. § 552 (West Supp. 2003).
2
  5 U.S.C. § 552a (2000).
3
  I.R.C. § 6103 (2001).
4
  This figure was rounded to 4.4 percent for report presentation purposes; however, the actual calculation was
performed as shown.
                                                                                                            Page 12
                           Improvements Are Needed to Ensure Compliance
                                 With the Freedom of Information Act

Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of the I.R.C. § 6103 (c) and (e)
requests that were closed nationally by the Disclosure offices during the period January 1, 2003,
through June 30, 2003. The Disclosure offices are not required to input a disposition code
showing how I.R.C. § 6103 cases are closed (granted, denied, etc.). Therefore, the majority of
these cases did not include a disposition code.
We estimated the size of the universe by:
         •   Identifying 18,677 closed I.R.C. § 6103 (c) and (e) requests.
         •   Randomly selecting for review 236 of these cases to estimate the universe of denied,
             partially denied, or no requested record available cases closed during the period
             January 1, 2003, through June 30, 2003.
         •   Multiplying the total number of closed requests in the audit universe by the
             percentage of cases in the sample where information was partially or fully denied or
             taxpayers were told that records did not exist (96 of 236 or 40.7 percent).
             18,677 cases * 40.678 percent5 = 7,597 cases.
         •   Multiplying the estimated universe of cases where information was partially or fully
             denied or taxpayers were told that records did not exist, by the error rate for the cases
             reviewed (14.6 percent). A case was considered an “error” if the Disclosure office
             improperly withheld information from the requestor.
             7,597 cases * 14.583 percent6 = 1,108 cases.




5
  This figure was rounded to 40.7 percent for report presentation purposes; however, the actual calculation was
performed as shown.
6
  This figure was rounded to 14.6 percent for report presentation purposes; however, the actual calculation was
performed as shown.
                                                                                                            Page 13
Improvements Are Needed to Ensure Compliance
      With the Freedom of Information Act

                                               Appendix V


Management’s Response to the Draft Report




                                                   Page 14
Improvements Are Needed to Ensure Compliance
      With the Freedom of Information Act




                                               Page 15
